April 2, 2014

The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

I am writing to inform you of design and construction defects at a prison in Baghlan province built by a
contractor hired by the Department of State, Bureau of International Narcotics and Law Enforcement (INL).
In December 2013, we announced an inspection of the Baghlan prison. While we have been unable to
conduct a physical inspection of the prison because of security concerns, our review of the contract files
found serious structural damage. The structural damage resulted in at least one of the housing units being
demolished. The designs indicate that this unit and other buildings at the site were built using
unreinforced brick walls between concrete columns. Subsequent information provided by INL shows the
facilities were built using some reinforcing steel. Although INL officials told us that any rebuilt structure(s)
will use the same construction materials and methods that were previously used, we believe that INL
should, for security and safety reasons, use steel reinforced masonry, such as concrete masonry units with
rebar, instead.1

The security concerns we identified pertain to the relative ease with which the strength of unreinforced
brick walls can be compromised by removing the mortar between the bricks. Employee and prisoner safety
is also jeopardized because the Baghlan prison is built in an area at risk of significant seismic events,2
and, as a result, structures not built to withstand such events could put life and property at significant risk.
Our review of the entire Baghlan prison construction project is on-going, but the serious nature of this
defect warrants your immediate attention.

On September 28, 2010, the State Department, Regional Procurement Support Office awarded a contract
on behalf of INL to Omran Holding Group (OHG), an Afghan firm, to build a prison that could house 495
inmates. The contract was valued at about $8.8 million, but eventually rose to approximately $11.3 million
after a series of contract modifications. INL required OHG to build the prison based on drawings completed
by Suraya Construction and Production Company (Suraya), another Afghan company, under a separate
contract. Suraya’s design for the Baghlan prison called for the use of unreinforced bricks walls, even
though the International Building Code (which was incorporated by reference into OHG’s contract), requires
that reinforced masonry be used in structures built in areas at risk of significant seismic events.3


1
   Concrete masonry units (or CMU) are hollow concrete blocks, most typically a nominal 16”x8”x8.” The majority of
CMU construction uses steel reinforcing bars (rebar) to tie the block together for a structurally monolithic masonry
wall.
2
   U.S. Geological Survey data shows that the Baghlan prison is located in the second highest earthquake hazard zone
in Afghanistan. See USGA Preliminary Earthquake Hazard Map of Afghanistan, by Oliver S. Boyd, Charles S. Mueller,
and Kenneth S. Rukstales, Open-File Report 2007–1137, USGS Afghanistan Project Product No. 156
3
   The International Building Code is developed by the International Code Council to provide modern, up-to-date building
code addressing the design and installation of building systems. The code establishes minimum standards for building
systems using prescriptive and performance-related provisions. According to the International Code Council, “the
International Building Code is founded on principles intended to establish provisions consistent with the scope of a
building code that adequately protects public health, safety and welfare; provisions that do not unnecessarily increase
construction costs; provisions that do not restrict the use of new materials, products or methods of construction; and
provisions that do not give preferential treatment to particular types or classes of materials, products or methods of
The contract files show that after the prison was transferred to the Afghan government on November 11,
2012, soil settlement occurred, which led to serious structural damage including wide cracks to buildings
17 (detention section), 18 (male section), and 19 (maximum security housing). Photos 1 and 2—obtained
from INL—show an aerial view of the prison and the damage to building 17, which was subsequently
demolished due to safety concerns.

Photo 1 - Buildings 17, 18, and 19 (May 2012)



               Building 19              Building 17



                   Building 18




Source: Technical Project Evaluation Report, August 18, 2013, Bureau of International Narcotics and Law
Enforcement.


Photo 2 - Interior View of Damage to Building 17




Source: Technical Project Evaluation Report, August 18, 2013, Bureau of International Narcotics and Law
Enforcement.




construction.” See International Building Code, page iii and American Concrete Institute publication ACI 530-05,
Building Code Requirements for Masonry Structures, section 1.14.2.1.

SIGAR 14-45-AL/Baghlan Prison Construction
Because OHG’s contract required that the firm provide a 1-year warranty that would allow INL to request
additional work necessary to correct any defects to equipment, material, design, or workmanship following
the transfer of the facility to the Afghan government, INL asked OHG to prepare corrective action plans
addressing the buildings’ structural damage. Both sides continue to discuss the question of liability, costs,
and the extent to which repairs will be covered by the warranty. Additionally, INL officials stated they will
soon contract with an independent third party to conduct a study to document the extent of damage at the
facility and the underlying causes for building settlement.

Regardless of whether OHG is ultimately responsible for repairing or rebuilding the structures under the
contract’s warranty, INL’s current plan is that any rebuilt structures will use the same construction
materials and methods that were previously used to construct the facility.

During the course of our fieldwork, we met with INL officials on three occasions in February 2014 and held
an additional meeting to discuss the findings of our inspection on March 12, 2014. During these meetings,
we told INL about our concerns, particularly that unreinforced brick walls between concrete columns were
used in construction. At no point during any of these meetings did INL representatives dispute our
assertion that the contractor inappropriately used unreinforced brick walls to construct the facilities.
Nevertheless, on March 31, 2014, after we sent a draft of this letter to the State Department, U.S.
Embassy Kabul, and INL, among others, we received an e-mail from INL providing two photos. According to
INL’s e-mail, these photos show that, contrary to the findings in our draft letter, the housing unit being
demolished had actually been built using reinforced brick. See photos 3 and 4 below.

Photo 3 - Building under Demolition




Source: INL, January 22, 2014.




SIGAR 14-45-AL/Baghlan Prison Construction
Photo 4 - Building under Demolition




Source: INL, January 22, 2014.

Although the two photos provided by INL show that some reinforcing steel had been used during
construction, the photos do not show that reinforced masonry walls between concrete columns were used
in compliance with the International Building Code. The American Concrete Institute (ACI) Building Code
Requirements for Masonry Structures (ACI 530-05), referenced by the International Building Code and
incorporated by reference into OHG’s contract, provide minimum reinforcement specifications for masonry
walls. The remnants of the walls shown in photos 3 and 4 have small diameter plain wire horizontal
reinforcing, spaced at approximately 28-inches on-center, and have no vertical steel. These two
deficiencies alone indicate that these walls do not comply with ACI requirements for Detailed plain
(unreinforced) masonry shear walls in ACI 530-05 section 1.14.2.2.2.

More alarmingly, the photos INL provided indicate that the reinforced concrete columns were improperly
constructed and that the method of demolition was unsafe. Specifically, the heavy concrete roof was left in
place, while portions of the brick walls that help support the roof were removed. INL also provided
additional photographs on April 1, 2014. Those photographs raise additional concerns regarding the
structural integrity of the columns and the risk of catastrophic failure. Photo 5 shows an example of a
structurally deficient column. In particular, there is severe aggregate segregation4 throughout the column
and a void in the concrete three and a half bricks high that exposes the reinforcing steel, seriously
compromising the column’s strength.




4
  Concrete consists of sand, gravel, or crushed stone (or aggregates) combined with water and Portland cement. The
aggregates make up 60 to 75 percent of the concrete mix and are critical to the strength of the concrete. Segregation
of concrete is separation of ingredients of concrete from each other. In good concrete work, all concrete aggregates
are evenly coated with the water, sand, and cement paste that forms a homogeneous mass. Dropping concrete from
heights over 48-inches and excessively high water content are two common causes of segregation.

SIGAR 14-45-AL/Baghlan Prison Construction
Photo 5 - Concrete Column with Voids and Exposed Reinforcing




Source: INL on April 1, 2014.



We are concerned that additional structural damage as a result of this type of demolition and new
construction using similar materials and methods could threaten employee and prisoner safety and the
security of the facility. Therefore, we suggest that INL reconsider its plan and direct that the structures be
rebuilt using reinforced masonry between concrete columns, as called for in the International Building
Code.

Should you have any questions or need additional information, please contact Elizabeth Field, Assistant
Inspector General for Audits and Inspections, at                  or                              , or Ryan
Coles, Principal Deputy Assistant Inspector General for Audits and Inspections, at
                         . Thank you in advance for your attention to this matter.




 John F. Sopko
 Special Inspector General
  for Afghanistan Reconstruction




SIGAR 14-45-AL/Baghlan Prison Construction
